<html>
<title> - NOMINATION OF ROBERT I. CUSICK</title>
<body><pre>[Senate Hearing 109-617]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-617
 
                     NOMINATION OF ROBERT I. CUSICK

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                 ON THE

 NOMINATION OF ROBERT I. CUSICK, TO BE DIRECTOR, OFFICE OF GOVERNMENT 
                                 ETHICS


                               __________

                              MAY 18, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
28-246                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
             Michael L. Alexander, Minority Staff Director
         Adam R. Sedgewick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Voinovich............................................     1
Prepared statement:
    Senator Lieberman............................................     9

                               WITNESSES
                         Thursday, May 18, 2006

Hon. Mitch McConnell, a U.S. Senator from the State of Kentucky..     1
Robert I. Cusick, to be Director, Office of Government Ethics:
    Testimony....................................................     4
    Prepared statement...........................................    10
    Biographical and professional information....................    11
    Letter from U.S. Office of Government Ethics.................    20
    Responses to pre-hearing questions...........................    21
    Response to post-hearing question............................    40


                     NOMINATION OF ROBERT I. CUSICK

                              ----------                              


                         THURSDAY, MAY 18, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:25 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The Committee will come to order.
    We are privileged to have Senator McConnell with us this 
morning to introduce Mr. Cusick.
    I apologize for being late, but we had a vote this morning. 
We are anxious to have this hearing so that Mr. Cusick's 
nomination can be advanced to the floor so he can get to work.
    Senator McConnell.

  TESTIMONY OF HON. MITCH MCCONNELL, A U.S. SENATOR FROM THE 
                       STATE OF KENTUCKY

    Senator McConnell. Thank you very much, Mr. Chairman.
    I am pleased to be here this morning to introduce to you an 
old friend, going back over 30 years, Robert I. Cusick, who is 
President Bush's nominee to be the next Director of the Office 
of Government Ethics.
    We call him ``Ric'' and have been calling him that for, as 
I indicated, quite awhile.
    His decades of experience in ethics and the law have well 
prepared him to lead the Executive Branch agency charged with 
strengthening public confidence in our government and 
government employees. The Office of Government Ethics takes 
care to prevent conflicts of interest on the part of government 
employees, fosters high ethical standards for government 
employees, and resolves conflicts or questions in these 
standards when they happen.
    I hope that during the confirmation process the Committee 
will conclude what all of us in Kentucky already know, which is 
that Ric is absolutely ideally suited for a job like this.
    He is currently a partner at Wyatt, Tarrant and Combs, one 
of our largest law firms. He is the Partner-in-Charge of Ethics 
Counseling for a firm of about 200 lawyers. He is also co-chair 
of the firm's Opinions and Standards Practice Group. He has 
been with this prestigious firm for over 30 years, the main 
office of which is located in my hometown of Louisville, 
Kentucky.
    Area public officials seek Ric out to consult with him on 
public officer ethics, and he is frequently asked to lecture on 
professional responsibility, confidentiality, and conflicts of 
interest.
    Ric has served as an expert witness on ethics matters in 
both civil and criminal cases, and he has drafted ethics 
regulations for the Kentucky Supreme Court.
    Prior to joining his law firm, Ric served his country as a 
Navy Judge Advocate here in Washington and at sea aboard the 
USS America of the Atlantic Fleet. Ric continued to serve as a 
Naval Reserve officer until retiring as a decorated Captain in 
1998. He has taught Federal officer ethics in three States as a 
Naval Reserve officer.
    He brings his expertise to many volunteer activities in the 
legal community. He currently serves as the chairman of the 
Ethics Rule Drafting Committee for the Kentucky Bar Association 
and has previously served as a member of that organization's 
Ethics Committee. He is a past member of the Board of Governors 
of the Kentucky Bar Association and a past member of the 
Kentucky Board of Bar Examiners.
    He is a member of the Louisville, Kentucky and American Bar 
Associations, a member of the American Judicature Society and 
the ABA Center for Professional Responsibility.
    He has been the chairman of the Louisville Bar Association 
Committee on Professional Responsibility. He served 8 years as 
chairman of the Jefferson County Ethics Commission, educating 
public officials on ethics issues. He received special 
commendation for his ethics work when the Kentucky Bar 
Association awarded him its Kentucky Bar Service Award.
    He also received a Certificate of Merit from the Louisville 
Metro Council for his ethics work and received the 
Distinguished Service Award from the Louisville Bar 
Association.
    In addition to that, Ric's neighbors have placed their 
trust in him by electing him a councilman for the City of 
Indian Hills, a small jurisdiction within our community. He is 
also active in his community as a trustee of the Harrods Creek 
Fire Protection District and as a Director of the Louisville-
Jefferson County Public Defender Corporation.
    A Louisvillian, as I indicated, he received his bachelor's 
and law degrees from the University of Louisville.
    The President has made the right choice by calling on Ric 
to serve our government as a guidepost on issues of 
professional responsibility and ethics. His entire career has 
really prepared him for this assignment. This is the perfect 
person for this job.
    He is a man of wisdom, character, and judgment who can be 
trusted to manage this office fairly and without prejudice.
    So Mr. Chairman, I thank you very much for the opportunity 
to be here to introduce an old friend who, at the risk of being 
redundant, is the perfect appointment for this job. I mean, 
typically the appointments are hard to match up directly with 
the positions. But I think the President has certainly done 
that in this case, and I am proud to be here with him.
    Senator Voinovich. I really thank you very much for coming 
here and introducing your friend.
    I must say I am very impressed with the list of things that 
Mr. Cusick has done. As a matter of fact, it added to some of 
the material that I have read personally about Mr. Cusick. I 
really thank you for being here today.
    Mr. Cusick, first of all, I want to say thank you for 
allowing yourself to be considered for Federal service.
    Mr. Cusick. Thank you, Senator.
    Senator Voinovich. I am well aware of everything you have 
to go through in order to be nominated for a position. I must 
tell you we are trying to streamline that a little bit.
    This Committee continues its work to reform the Federal 
workforce in order to address the challenge of the 21st 
Century, and I believe that the Office of Government Ethics is 
going to grow. While not widely known, the office does vital 
work to prevent conflicts of interest on behalf of government 
employees. The Office of Government Ethics has responsibility 
for reviewing the financial disclosure reports for high-level 
Executive Branch nominees and employees in order to ascertain 
conflicts of interest.
    If that work is as fastidious as what we have to do, you 
have a lot of work ahead of you.
    Mr. Cusick. Yes, sir.
    Senator Voinovich. The Office of Government Ethics issues 
advisory opinions to guide Federal agencies in response to 
questions about conflict of interest laws and regulations. The 
work of the Office of Government Ethics is imperative to foster 
and maintain the public's trust in its government. I think that 
is something that we all have to be worried about. We have to 
maintain the public's trust in government.
    Mr. Cusick, you have filed responses to a biographical and 
financial questionnaire. You have answered pre-hearing 
questions submitted by the Committee. You have had your 
financial statements reviewed by the Office of Government 
Ethics, and without objection this information will be made a 
part of the hearing record, with the exception of the financial 
data which are on file and are available for public inspection 
in the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Mr. 
Cusick, would you please stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
this Committee is the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Cusick. I do, Senator.
    Senator Voinovich. Let the record show that Mr. Cusick 
answered in the affirmative.
    I understand that you have members of your family here 
today?
    Mr. Cusick. Actually not my family, Senator, but a lot of 
people close to me, like family.
    Senator Voinovich. Well, sometimes people that are close to 
you are even better than family.
    Mr. Cusick. Yes, sir. That has been my experience, as well.
    Senator Voinovich. If you would, we would appreciate your 
introducing your friends here today.
    Mr. Cusick. Senator, my friend since kindergarten, Charlie 
Ricketts.
    Mr. Ricketts. Senator.
    Senator Voinovich. Mr. Ricketts.
    Mr. Cusick. Deanna Pelfrey, a friend of well over 20 years. 
My assistant, Beverly Johnson. Danielle Pelfrey, who is a 
student at Georgetown Law School and her husband, Eric Duryea. 
Obviously Danielle is Danielle Pelfrey Duryea.
    I have the members of the staff here from OGE. We have not 
known each other very long, and I am very flattered that they 
came, as well--Joe Gangloff, Jane Ley, Marilyn Glynn, Susan 
Propper, Shelley Finlayson, and Ethan Carrier, whom I met only 
today.
    Senator Voinovich. That is wonderful. He has got a good 
memory for names. That is wonderful.
    Mr. Cusick. I sometimes wonder about that, Senator. Not 
every day do I have that.
    Senator Voinovich. Well, I do not know if you are at that 
stage, but we all have our senior moments.
    There are three questions that we ask all nominees. First, 
is there anything that you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Cusick. No, sir.
    Senator Voinovich. Do you know of anything personal or 
otherwise that would, in any way, prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Cusick. I know of no such thing, Senator.
    Senator Voinovich. And last, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of congress, if 
you are confirmed?
    Mr. Cusick. I do.
    Senator Voinovich. Thank you.
    I would like to hear from you. Do you have a statement?

  TESTIMONY OF ROBERT I. CUSICK,\1\ TO BE DIRECTOR, OFFICE OF 
                       GOVERNMENT ETHICS

    Mr. Cusick. Senator, I am, it is hardly necessary to say, 
very honored that the President nominated me to the position of 
Director of the Office of Government Ethics. And I am also 
honored to be here today for the Committee's hearing on my 
nomination.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cusick appears in the Appendix on 
page 10.
---------------------------------------------------------------------------
    I think everybody in this room agrees that public office is 
a public trust. We have to go further than that though, I 
believe. Careful rulemaking, education and leadership of an 
ethical focus is essential to that public trust being observed. 
The Office of Government Ethics has been given the central 
leadership role in that task by Congress for the Executive 
Branch. And frankly, it would please me greatly to be trusted 
with the responsibility for that agency.
    My experience as a Kentucky lawyer for over 38 years and as 
a retired Naval Reserve Judge Advocate, I believe, has prepared 
me for the challenge of leading the Agency. I have trained Navy 
units. I have trained local officials in public officer ethics. 
I have been very active and involved in the Kentucky Bar 
Association in ethics matters and discipline matters. I have 
served as the ethics partner of Wyatt, Tarrant and Combs for 
many years, and that is a large firm of over 200 lawyers in 
three States.
    I believe that it is essential to the ethical culture in a 
large organization to implement a system that trains, advises, 
and audits ethical compliance. I believe in systems like that. 
Unethical acts, I believe, are not always the result of 
venality. Although reading some newspapers might lead you to 
that conclusion. They can also grow in a culture of banality, 
in which people simply want to look successful or to conceal 
failure or to enhance personal relationships or to frustrate 
oversight. I believe the ugly examples of corporate unethical 
acts in the business pages of the newspapers should not be 
permitted in government.
    In the most fundamental sense, I think, government ethics 
can be characterized as ensuring that government decisions are 
informed by the public interest and not by private interest. 
There will always be debate in our democracy about alternative 
views of what the public interest is, sometimes acrimonious 
debate. But such views can be distinguished from private 
interest. And it is my belief that distinction is a large part 
of the job of the Office of Government Ethics.
    Last week FBI Director Robert Mueller was quoted in the 
newspaper as saying that public corruption ``tears at the 
fabric of democracy.'' I believe Director Mueller said that 
very well.
    If confirmed, I will exert every effort within the 
jurisdiction of the Office of Government Ethics to see that 
official decisions are informed by the public interest. Thank 
you Senator.
    Senator Voinovich. Thank you for that very thoughtful 
statement.
    Have you had a chance yet to look at how many people you 
will have working with you?
    Mr. Cusick. Approximately 80 people, Senator.
    Senator Voinovich. How long do you think it is going to 
take for you to determine whether or not that is enough to get 
the job done?
    Mr. Cusick. I think probably not too long, as the job 
stands right now. I believe if the responsibilities of the 
Agency were increased that both personnel and budget changes 
might have to be made. I think at the present time the balance 
between personnel and the task is a relatively good one, but it 
might not remain so if legislation adds to those 
responsibilities.
    Senator Voinovich. One of the problems in government is in 
too many cases Congress asks agencies to do things that are 
important to the government but do not give them the resources 
to get the job done. I have always had a philosophy that if you 
ask somebody to do the job and you do not give them the 
resources to get it done, then you are basically saying that 
the job is not that important.
    Mr. Cusick. I favor that philosophy, Senator.
    Senator Voinovich. All I would say to you is that, once 
confirmed to this position and you see what is going on, if you 
need some additional resources, you ask for them.
    I think that the scandals in the corporate world has been 
very hurtful and contributed to what we saw happen to the stock 
market. It seems that we are starting to get some faith back 
into those financial markets.
    We must do everything that we can to uphold the public 
trust, and even to go beyond that. We should try and guard 
against not only doing things that are wrong but also to guard 
against doing things that appear to be wrong.
    I am glad that you have had the experience that you have 
had in education and training.
    I would be interested in how important you think it is? 
Have you thought about that in context of this new job that you 
are taking?
    Mr. Cusick. Senator, I think that education is really 
essential in this field. Unfortunately, the subject of ethics 
tends to be watered down by many people that think well, my 
intentions are good, I do not have to worry about that. I think 
it is far more complicated than that. And I think that 
education in ethics principles and rules is important in a 
number of ways.
    One of the things it does is raise the level of public 
discourse about public official ethics.
    I saw that happen in my homecounty of Jefferson County, 
where Louisville is located, when the first ethics ordinance 
was enacted. All officials above a certain level had to attend 
mandatory training every year. And we would have four sessions 
to make it accessible to people that worked night shifts and so 
forth.
    I found that after those sessions I would get a lot of 
calls for the next several weeks from people who were thinking 
about issues that they had not actively analyzed before, saying 
would this be all right? Is this something I should recuse 
myself on? Can I approve my subordinate's action in this 
respect?
    I really found that very satisfying to see that education 
in the rules and principles was having effect, was taking 
effect.
    So yes, I think it is very important. I think it is also 
important for subordinates in government to see their senior 
leaders in that educational atmosphere. In other words, to 
understand that their senior leaders are being trained in that 
atmosphere that they will expect compliance with that kind of 
thinking.
    I think that ethical leadership from the top down is 
essential to the ethical survival of an organization. If the 
message is sent, as clearly it has been sent in some private 
corporations we read about in the newspaper, that it is a 
secondary or a tertiary consideration and that the bottom line 
is everything, then people begin to think that way.
    And that introduces cynicism into a company, it introduces 
cynicism into government agencies, and frankly it introduces 
cynicism into the public. And I do not think that is good for 
any of us.
    Senator Voinovich. I agree with you, and I think that one 
of the best things that happened in Ohio with our continuing 
legal education was requiring that every 2 years lawyers had so 
many hours of ethics training.
    I have one request of you. That is that after you have had 
a chance to get your feet on the ground, I would be interested 
in hearing from you your assessment of the ethics education 
system and any thoughts that you have on how it might be 
improved.
    We have a big problem in the Congress. If we pass lobbying 
reform, there will be mandatory ethics training for Senators 
every year. What I have found is that some of my colleagues 
have gotten in trouble because they have not paid attention or 
been reminded of the rules. In other words, it has not been 
held prominent in their minds, and as a result of it, they have 
done some things and many times just inadvertent.
    Mr. Cusick. That has been my experience.
    Senator Voinovich. So, I would appreciate if you shared 
with me your assessment of OGE's training program. I do not 
have any further questions. I am honored that you are willing 
to take this job on, and I wish you all the best. We will try 
to get you confirmed as soon as possible.
    Mr. Cusick. Thank you, Senator.
    Senator Voinovich. I am going to leave the record open 
today until 5 p.m. in case any of my colleagues want to submit 
questions to you for the record.
    Mr. Cusick. Thank you, sir.
    Senator Voinovich. The hearing is adjourned.
    [Whereupon, at 10:45 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Thank you, Madam Chairman. And welcome, Mr. Cusick, to you and your 
family. The Office of Government Ethics is a key player in maintaining 
the highest ethical standards throughout the Executive Branch. The 
director's job has been vacant since December 2003, and I am troubled 
the Administration waited a year and a half into the 109th Congress 
before nominating you to lead the office. I am pleased your nomination 
has been made and I hope it proceeds smoothly so the message going 
forward will be that ethics are at the core of everything we in public 
service do.
    The OGE is responsible for establishing and maintaining a uniform 
legal framework of ethics for Executive Branch employees, supporting 
the ethics programs of each Federal agency through educational 
programs, advisory opinions, and review of agency ethics procedures, 
and overseeing the financial disclosure of Executive Branch employees. 
Only through the transparency of financial disclosure can we prevent 
conflicts of interest that undermine the impartiality of government 
decisionmakers.
    As Mr. Cusick noted in written responses to the Committee's 
questionnaire, ``government ethics'' should not be an oxymoron. 
Unfortunately, the headlines of the past year have given the American 
public more than a few reasons to question whether some Federal 
officials take their ethical obligation seriously.
    David Safavian, the President's former top procurement officer, was 
indicted for lying about his dealings with lobbyist Jack Abramoff. Tony 
Rudy, a former aide to Congressman DeLay, pleaded guilty to conspiracy 
related to corrupt lobbying practices and admitted violating the 
prohibition of former Congressional staff from lobbying their previous 
bosses for one year. Mr. Abramoff pleaded guilty to fraud and 
conspiracy to bribe public officials, and his associate Michael Scanlon 
pleaded guilty to conspiracy to bribe a congressman and other public 
officials. Congressman Duke Cunningham pleaded guilty to accepting 
bribes. A former aide to Congressman Ney pleaded guilty to conspiring 
to influence the Congressman's actions through expensive gifts and 
travel. And a former aide to Congressman Jefferson pleaded guilty to 
bribing his former boss.
    In no way do I mean to lay any of these ethical lapses at the feet 
of OGE. But in the context of today's hearing, these incidents remind 
us how a handful of selfish, corrupt individuals can inflict widespread 
damage on the public's confidence in the integrity of our government. 
We need strong leadership from OGE to make sure that Executive Branch 
personnel fully understand and fulfill their ethical responsibilities.
    Public service is a privilege, and those who choose to pursue it 
must perform their duties in the public interest, not in their own 
self-interest. I look forward to hearing from Mr. Cusick today with his 
vision for making that maxim a reality.

[GRAPHIC] [TIFF OMITTED] T8246.001

[GRAPHIC] [TIFF OMITTED] T8246.002

[GRAPHIC] [TIFF OMITTED] T8246.003

[GRAPHIC] [TIFF OMITTED] T8246.004

[GRAPHIC] [TIFF OMITTED] T8246.005

[GRAPHIC] [TIFF OMITTED] T8246.006

[GRAPHIC] [TIFF OMITTED] T8246.007

[GRAPHIC] [TIFF OMITTED] T8246.008

[GRAPHIC] [TIFF OMITTED] T8246.009

[GRAPHIC] [TIFF OMITTED] T8246.010

[GRAPHIC] [TIFF OMITTED] T8246.011

[GRAPHIC] [TIFF OMITTED] T8246.012

[GRAPHIC] [TIFF OMITTED] T8246.013

[GRAPHIC] [TIFF OMITTED] T8246.014

[GRAPHIC] [TIFF OMITTED] T8246.015

[GRAPHIC] [TIFF OMITTED] T8246.016

[GRAPHIC] [TIFF OMITTED] T8246.017

[GRAPHIC] [TIFF OMITTED] T8246.018

[GRAPHIC] [TIFF OMITTED] T8246.019

[GRAPHIC] [TIFF OMITTED] T8246.020

[GRAPHIC] [TIFF OMITTED] T8246.021

[GRAPHIC] [TIFF OMITTED] T8246.022

[GRAPHIC] [TIFF OMITTED] T8246.023

[GRAPHIC] [TIFF OMITTED] T8246.024

[GRAPHIC] [TIFF OMITTED] T8246.025

[GRAPHIC] [TIFF OMITTED] T8246.026

[GRAPHIC] [TIFF OMITTED] T8246.027

[GRAPHIC] [TIFF OMITTED] T8246.028

[GRAPHIC] [TIFF OMITTED] T8246.029

[GRAPHIC] [TIFF OMITTED] T8246.030

[GRAPHIC] [TIFF OMITTED] T8246.031

                                 <all>

</pre></body></html>
